<html>
<title> - PERSPECTIVES ON CHILD NUTRITION REAUTHORIZATION</title>
<body><pre>[Senate Hearing 116-128]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-128

                         PERSPECTIVES ON CHILD
                       NUTRITION REAUTHORIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2019

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.govinfo.gov/
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-224 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
      
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CINDY HYDE-SMITH, Mississippi        MICHAEL BENNET, Colorado
MIKE BRAUN, Indiana                  KIRSTEN GILLIBRAND, New York
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
CHARLES GRASSLEY, Iowa               TINA SMITH, Minnesota
JOHN THUNE, South Dakota             RICHARD DURBIN, Illinois
DEB FISCHER, Nebraska

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                       Wednesday, April 10, 2019

                                                                   Page

Hearing:

Perspectives on Child Nutrition Reauthorization..................     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2

                                Panel I

Lipps, Brandon, Acting Deputy Under Secretary for Food, Nutrition 
  and Consumer Services, U.S. Department of Agriculture, 
  Washington, DC.................................................     5
Larin, Kathryn, Director, Education, Workforce and Income 
  Security, U.S. Government Accountability Office, Washington, DC     7

                                Panel II

Mathiasmeier, Josh, Director of Nutritional Services, Kansas 
  City, Kansas Public Schools, Kansas City, KS...................    25
Halligan, Michael J., Chief Executive Officer, God's Pantry Food 
  Bank, Lexington, KY............................................    27
Waits, Lauren, Director of Government Affairs, Atlanta Community 
  Food Bank, Atlanta, GA.........................................    29
Wagner, Kati, Vice President, National CACFP Sponsors 
  Association, Round Rock, TX....................................    31
Lanre Falusi, Dr. Olanrewaju, Pediatrician, Children's National 
  Health System and Past President, American Academy of 
  Pediatrics DC Chapter, Washington, DC..........................    33
                              
                              ----------                              

                                APPENDIX

Prepared Statements:
    Lipps, Brandon...............................................    42
    Larin, Kathryn...............................................    46
    Mathiasmeier, Josh...........................................    67
    Halligan, Michael J..........................................    70
    Waits, Lauren................................................    81
    Wagner, Kati.................................................    91
    Lanre Falusi, Dr. Olanrewaju.................................   124

Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    U.S. Department of Agriculture Office of Inspector General, 
      Improper Payments Review Results...........................   136

Question and Answer:
Lipps, Brandon:
    Written response to questions from Hon. Pat Roberts..........   142
    Written response to questions from Hon. Debbie Stabenow......   156
    Written response to questions from Hon. John Hoeven..........   160
    Written response to questions from Hon. Cindy Hyde-Smith.....   161
    Written response to questions from Hon. John Thune...........   164
    Written response to questions from Hon. Amy Klobuchar........   165
    Written response to questions from Hon. Tina Smith...........   166
Larin, Kathryn:
    Written response to questions from Hon. Pat Roberts..........   168
Mathiasmeier, Josh:
    Written response to questions from Hon. Pat Roberts..........   175
    Written response to questions from Hon. Debbie Stabenow......   176
    Written response to questions from Hon. John Hoeven..........   177
    Written response to questions from Hon. Amy Klobuchar........   178
Halligan, Michael J.:
    Written response to questions from Hon. Pat Roberts..........   179
    Written response to questions from Hon. Debbie Stabenow......   181
    Written response to questions from Hon. John Hoeven..........   183
Waits, Lauren:
    Written response to questions from Hon. Pat Roberts..........   186
    Written response to questions from Hon. Debbie Stabenow......   187
Wagner, Kati:
    Written response to questions from Hon. Pat Roberts..........   189
    Written response to questions from Hon. Debbie Stabenow......   192
Lanre Falusi, Dr. Olanrewaju:
    Written response to questions from Hon. Pat Roberts..........   193
    Written response to questions from Hon. Debbie Stabenow......   194
    Written response to questions from Hon. Amy Klobuchar........   194

 
            PERSPECTIVES ON CHILD NUTRITION REAUTHORIZATION

                              ----------                              


                       WEDNESDAY, APRIL 10, 2019

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 216, Hart Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Senators Roberts, McConnell, Boozman, Hoeven, 
Ernst, Hyde-Smith, Braun, Grassley, Thune, Fischer, Stabenow, 
Brown, Bennet, Gillibrand, Casey, Smith, and Durbin.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. I call this hearing of the Committee on 
Agriculture, Nutrition, and Forestry to order.
    This hearing examines child nutrition programs which have 
consistently benefited from broad bipartisan support. The 
Committee looks forward to that continuing today as we hear 
perspectives on child nutrition reauthorization.
    I remind everybody that the last child nutrition 
reauthorization was completed in 2010, 8 to 9 years ago, I 
would say to my distinguished Ranking Member, so it is again 
necessary to take a fresh look to find ways to provide 
certainty, to reduce administrative redundancies, and allow 
flexibility at the local level to better serve participants and 
stakeholders.
    School food service directors are constantly stretching 
every dollar to provide nutritious, affordable meals to their 
students, and they are finding new and creative ways to prepare 
foods in a manner so that students will eat them. Ever-changing 
rules in reporting makes this far more difficult.
    I have visited many Kansas schools as there are close to 
300 school districts in Kansas. Now, considering how many 
districts there are in the entire United States and how 
different each district is, it is clear that a one-size-fits-
all approach simply will not work for everyone.
    The same is true for nonprofits and charitable 
organizations and, of course, for the participants--the 
children, the students, the mothers, and families who use these 
programs. This includes the National School Lunch Program, the 
National School Breakfast Program, the Summer Food Service 
Program, the Child and Adult Care Food Program, and the Special 
Supplemental Nutrition Program for Women, Infants, and 
Children, commonly referred to as ``WIC.'' There is also the 
Special Milk Program, the Fresh Fruit and Vegetable Program, 
the Farm to School Program--do you know of any other program?
    Senator Stabenow. We have got a few.
    Chairman Roberts. Other programs that are part of this 
process. Combined, these programs account for $30 billion in 
annual mandatory and discretionary spending, so it is important 
for us--meaning Congress, and more directly this Committee--to 
review how these programs are working. Today we will hear from 
the Department of Agriculture's Food and Nutrition Service 
about how they are managing these programs. To that end, it is 
ordered that this letter and attachment on program integrity 
and related issues from the Department's Deputy Secretary 
Stephen Censky, dated June 20, 2018, be included in the 
Committee record of today's hearing.

    [The following information can be found on page 136 in the 
appendix.]

    Chairman Roberts. We will also hear from the Government 
Accountability Office about how the Department of Agriculture 
is administering these programs. On our second panel, we will 
be hearing from those who are operating and implementing these 
programs at the ground level.
    There is a pathway for child nutrition programs to be 
reauthorized in a bipartisan manner yet this year, and today's 
hearing is the first step in this process.
    I now turn to our distinguished Ranking Member, Senator 
Stabenow, for any opening remarks she may have at this time.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman. Thank you 
for holding this very, very important hearing. Thank you to all 
of the witnesses that are joining us today.
    I am very proud of the work we have done together on the 
Committee to expand access to healthy foods for families. Our 
recent farm bill strengthened nutrition education and made 
nutritious food more affordable, with incentives for fruits and 
vegetables and produce prescriptions.
    The foundation of healthy families, as we all know, and a 
healthy future really starts with our children. As this 
Committee begins the reauthorization process, it is important 
to remember how critical child nutrition is to the future of 
our country. Whether it is ensuring a mother is getting enough 
calcium to build healthy bones for her baby or making sure that 
a 10-year-old is not fighting hunger pains in math class, child 
nutrition is about building a stronger future.
    It is also important to our national security. 
Interestingly, the National School Lunch Program was created in 
the 1940's because General Lewis Hershey came before Congress 
to explain that recruits were being rejected due to 
malnutrition. Today over 750 retired generals--many have come 
before this Committee in the past--and other military leaders 
are sounding alarm bells again, this time because young adults 
are too overweight to serve. With 14 percent of children as 
young as 2 showing signs of obesity, we have to address this 
issue early, and everywhere our children are forming healthy 
habits is an area we need to focus on.
    In the past decade, we have certainly made progress to help 
improve healthy eating in cafeterias, daycare centers, and 
while children are out and about and out of school.
    In my home State of Michigan, nearly 1,600 schools and 
cities from Dexter to Detroit are using farm-to-school 
initiatives to grow their own salad greens, tomatoes, and 
peppers. Michigan is leading the way in using Summer EBT to 
ensure students do not go hungry during the summer months when 
school is out. The expansion of this program in Flint has been 
critical to helping families mitigate the impact of lead in 
their children.
    Additionally, Michigan was one of the first States to roll 
out the community eligibility provision, an improvement that 
expands access to healthy meals for children while reducing 
paperwork for schools and families.
    There are examples like these happening everywhere in the 
country in communities in every State represented on this 
Committee. Even though we have seen great progress, it is vital 
that we keep moving forward, not backward, and that certainly 
is one of my goals, to make sure we keep moving forward. I know 
the Chairman joins in that as well.
    Obesity rates for adolescent children continue to rise, yet 
at the same time, over 12 million children in this country do 
not have enough to eat. This is a crisis of both child 
nutrition, child health, and hunger. We need to address this 
crisis by improving access to nutritious foods so our kids get 
healthy, not hungrier.
    Our children need healthy lunch options, and they also need 
wholesome breakfasts and after-school snacks, and we know 
hunger does not take a break when school is out for the summer. 
Whether it is a summer meals program at the YMCA to help 
prevent the summer learning slide or a veggie van driving out 
to a rural community to ensure children have healthy meals in 
July, we need to do better.
    We also know many moms and babies rely on WIC to provide 
healthy food at home during these critical first stages of 
life. As important developmental milestones continue throughout 
childhood, we should make sure young children are not falling 
through the cracks either. Our child nutrition programs help 
set up our children up for success.
    We can and should look for ways to streamline paperwork and 
make it easier for providers to focus on serving healthy meals 
to kids. However, we can and should do that without 
backtracking on the progress we have made on healthy food and 
critical access.
    Mr. Chairman, I look forward to working with you and the 
members of the Committee, as we always do together, in this 
case to strengthen our child nutrition programs, and I know 
that you and I agree that the health and well-being of our 
children is not a partisan issue. This is an issue of the 
future, and I look forward to success once again in our 
Committee. Thank you, Mr. Chairman.
    Chairman Roberts. I thank our distinguished Ranking Member.
    On our second panel we have a witness, Mr. Michael J. 
Halligan, who is chief executive officer of God's Pantry Food 
Bank in Lexington, Kentucky. It is my honor to recognize our 
distinguished Leader for his introduction of that witness. 
Leader McConnell.
    Senator McConnell. Thank you, Mr. Chairman and Senator 
Stabenow. I appreciate the opportunity to have a chance to cut 
in here to introduce someone from Kentucky who will be on the 
next panel.
    I am really pleased to have the opportunity to introduce my 
fellow Kentuckian, Mike Halligan, who runs God's Pantry Food 
Bank based in Lexington and who will be on today's second 
panel, as I said.
    God's Pantry has been serving Kentuckians in need since 
1955. Today it operates in 50 counties in central and eastern 
Kentucky. It represents one part of a nationwide system of 
organizations working to create a hunger-free America.
    Mike joined God's Pantry in 2017 after more than 30 years 
in senior positions throughout the food and grocery industries. 
With its affiliates and partners, including Kentucky 
Agriculture Commissioner Ryan Quarles, God's Pantry distributed 
more than 34 million pounds of food in the last Fiscal Year to 
those in need in my State.
    The heartbreaking fact is that one in five Kentucky 
children experience food insecurity. Worse still, these kids 
are also more likely to suffer chronic health and developmental 
issues throughout their lives as a result. Youngsters should be 
able to concentrate on school and on learning the skills they 
need to succeed. They should not have to worry about where they 
will find their next meal.
    At God's Pantry, Mike and his team address this problem 
head on. Through programs at schools, libraries, and churches, 
his organization works hard to ensure children have year-round 
access to nutritious meals.
    For example, to fill in for the absence of school lunches 
during the summer months, God's Pantry goes into many Kentucky 
communities to deliver meals and snacks free of charge.
    In our State, which has many diverse regions and 
communities, that can pose a serious logistical challenge. 
Helping get the food needed to children in Lexington, an urban 
area, is quite different from helping kids in the mountains of 
Appalachia. God's Pantry manages to do both. Instead of a one-
size-fits-all Federal program, Mike and his team need the 
flexibility to reach children wherever they can do the most 
good.
    Right now, Federal restrictions limit his ability to send 
kids home from school with food over the weekend, and not every 
kid is able to find transportation to get meals during the 
summer months when the school buses are not running.
    So as we consider reauthorization of the child nutrition 
programs, I hope we can address these challenges to ensure that 
red tape is not getting in the way of serving those who need 
our help.
    Mike's successful track record of helping Kentuckians will 
bring a valuable perspective, and I am confident this Committee 
will benefit from his testimony today.
    So, Mr. Chairman, Senator Stabenow, thank you once again 
for giving me an opportunity to sort of butt in here and for 
the opportunity to introduce this fine Kentuckian who is doing 
a lot of extremely important work in my State.
    Thank you very much.
    Chairman Roberts. Senator McConnell, I can certainly 
emphasize that you are not butting in. You are welcome here 
anytime on any subject that you would like to participate in on 
the sometimes powerful Senate Agriculture Committee.
    [Laughter.]
    Senator McConnell. See you later.
    Chairman Roberts. We now welcome the first panel of 
witnesses before the Committee this morning.
    Mr. Brandon Lipps--welcome, Brandon--Acting Deputy Under 
Secretary for Food, Nutrition, and Consumer Services within the 
Department of Agriculture, and he also serves as the 
Administrator of the Food and Nutrition Service as well as the 
Acting Deputy Secretary of Food, Nutrition, and Consumer 
Services at the Department. As the FNS Administrator, he 
oversees the 15 nutrition assistance programs at the 
Department. Prior to his time at the Department, Mr. Lipps 
served as the chief of staff in the Office of Chancellor Robert 
Duncan at Texas Tech University.
    I would tell the distinguished Ranking Member that we 
should extend our sympathies to the Red Raiders and----
    Senator Stabenow. Not really.
    [Laughter.]
    Chairman Roberts. The Red Raiders are from the Big 12 
Conference. They play Kansas State University. I think we 
actually somehow beat you one game, but I am not sure about 
that. I was cheering for you all the way.
    Senator Stabenow. I was not.
    [Laughter.]
    Chairman Roberts. He previously worked on nutrition issues 
as a staff member of the House Agriculture Committee.

 STATEMENT OF BRANDON LIPPS, ACTING DEPUTY UNDER SECRETARY FOR 
  FOOD, NUTRITION, AND CONSUMER SERVICES, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Lipps. Thank you, Chairman Roberts and Ranking Member 
Stabenow, and thank you for the opportunity to testify today on 
reauthorization of child nutrition and WIC programs. I 
appreciate your comments with regard to my alma mater. We know 
the Big 12 is a powerhouse, and we will continue to try to show 
that as we move forward.
    I am Brandon Lipps, the Acting Deputy Under Secretary for 
Food, Nutrition, and Consumer Services at the U.S. Department 
of Agriculture. As you know, nutrition assistance programs 
leverage the Nation's agricultural abundance that is important 
to this Committee and to all of us to ensure that every 
American has access to wholesome, nutritious food.
    This Committee is keenly aware of the critical importance 
of all of these programs. Just to mention a few, on an average 
day almost 30 million children receive a school lunch and 15 
million children receive a school breakfast. Over 4.5 million 
receive meals and snacks in child-care settings through the 
Child and Adult Care Feeding Program, which we refer to as 
CACFP. Last summer, almost 146 million meals were served to 
approximately 2.7 million children through the Summer Food 
Service Program. WIC served a monthly average of 6.9 million 
women, infants, and children in Fiscal Year 2018. These 
programs ensure access to nutritious food so that children can 
grow, learn, and develop properly.
    I join you today to contribute to a reauthorization process 
that builds on the programs' history of success, while also 
advancing the administration's nutrition priorities--to improve 
customer service for our participants, to protect and enhance 
integrity, and to strengthen the bonds between FNS programs and 
self-sufficiency.
    When I am on the road, I say that self-sufficiency at the 
Food Nutrition Service begins in our WIC Program. Infants who 
do not have proper nutrition cannot develop into children who 
can learn in our schools. Any teacher will tell you that school 
children who do not have adequate nutrition and full stomachs 
do not learn well in class. Those kids cannot develop into 
self-sufficient adults contributing to society if we do not 
give them the start that they need through these programs.
    I would like to share some of our activities today related 
to the child nutrition and WIC, particularly in the areas of 
customer service and integrity.
    Secretary Perdue, as you know, has placed a robust focus on 
customer service across the Department. Great customer service, 
we believe, starts with listening to our customers and 
addressing their needs and challenges.
    I have had the chance to visit many of our programs, one of 
the favorite parts of my job, from WIC clinics to summer stops 
to daycare centers that operate our CACFP Program. I have 
consistently heard the importance of these programs in ensuring 
that children can grow and learn, but also the importance of 
local flexibilities to ensure kids will eat the foods that we 
provide through these programs.
    This sentiment echoes what both the Secretary and I have 
heard since before we started these jobs at USDA. That is why 
one of the Secretary's first actions was to extend school lunch 
flexibilities related to milk, whole grains, and sodium.
    We also heard that our education and training standards for 
our food service professionals in schools put a hiring strain 
particularly on many small school districts. So we revised 
those rules to allow more flexibility.
    I am proud of these successes, but there is more to be 
done, so we continue to listen to our customers each and every 
day through formal and informal settings. We do this because 
local nutrition operators know their student customers and 
their communities best. Similarly, I have held roundtables with 
the WIC community, including operators, business partners, and 
participants, to better understand the challenges of operating 
this very important program. Hearing and heeding the customer's 
voice is just good business. We all know that, whatever 
business we are in.
    Just as important as good customer service is strong 
program integrity to ensure public confidence in these 
programs. Here again we listened and heard that school meal 
program operators needed better tools to improve integrity and 
efficiency in easy-to-use ways. FNS has responded with new 
resources such as web-based school meals applications to 
minimize errors. We also proposed in the Fiscal Year 2020 
budget to strengthen income eligibility verification processes, 
to focus more on applications at high risk for error.
    Finally, in the last reauthorization, Congress set the 
expectation that all WIC agencies implement electronic benefit 
transfer by October 2020. The move to EBT supports increased 
program integrity and efficiency while enhancing the customer 
experience and service. I can report that today 48 WIC State, 
territorial, and tribal agencies have successfully implemented 
EBT Statewide, and the remaining 42 are in planning or 
implementation.
    Last, we also worked closely with oversight organizations 
such as the GAO, who joins us today, and USDA's Office of 
Inspector General to identify and address integrity challenges. 
We appreciate our partnerships with these agencies, the 
opportunities for improvement that they provide to us, and we 
actively work with them to improve our programs each and every 
day.
    In closing, I want to thank the Committee for your 
engagement with USDA to support this reauthorization of these 
very important programs. I know the painstaking effort of this 
reauthorization process. The Department stands ready to support 
and provide technical assistance to you as needed as you 
complete these deliberations.
    Thank you, Mr. Chairman, and I am happy to answer any 
questions.

    [The prepared statement of Mr. Lipps can be found on page 
42 in the appendix.]

    Chairman Roberts. Mr. Lipps, thank you for that very 
comprehensive statement.
    Our next witness is Ms. Kathryn Larin, Director of 
Education, Workforce, and Income Security within the Government 
Accountability Office. Ms. Larin is the Director of the 
Education, Workforce, and Income Security team at the GAO. 
While part of the GAO's Forensic Audit and Investigative 
Services team, Ms. Larin oversaw forensic audits and 
investigations of fraud, waste, and abuse across a range of 
Federal programs. Prior to her time at the GAO, Ms. Larin 
served as a senior analyst at the Center on Budget and Policy 
Priorities, and she served as an Economist at the U.S. 
Department of Education's Planning and Evaluation Service on 
Postsecondary Education Issues. Welcome. We look forward to 
your testimony.

STATEMENT OF KATHRYN A. LARIN, DIRECTOR, EDUCATION, WORKFORCE, 
  AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                        WASHINGTON, D.C.

    Ms. Larin. Chairman Roberts, Ranking Member Stabenow, and 
members of the Committee, I am pleased to be here today to 
discuss our work on program integrity in USDA's child nutrition 
programs.
    In Fiscal Year 2018, the Federal Government provided about 
$30 billion for these programs, including school meals, WIC, 
and the Summer Food Service Program, among others. My testimony 
today will address two items: actions USDA's Food and Nutrition 
Service has taken to improve the integrity of programs in 
response to GAO recommendations, and improper payments.
    First, regarding USDA actions, we have identified several 
opportunities for FNS to improve oversight of the school meals 
programs. For example, in 2014, we found evidence that States 
were not consistently documenting noncompliance with Federal 
regulations, nor were they requiring corrective actions to 
address issues they found while monitoring programs. Further, 
we found that States needed more guidance on how to monitor the 
financial management of school meals programs, an area States 
were newly required to review.
    In response to our recommendations, FNS has taken steps to 
strengthen compliance reviews and corrective action plans and, 
after assessing States' information needs, issued guidance to 
improve financial oversight.
    GAO also did work looking at the process for verifying that 
only those children eligible for school meals participate in 
the program. In our May 2014 report, we recommended that FNS 
take multiple steps to improve the verification process, and 
FNS took actions in response to all of our recommendations.
    For example, FNS distributed guidance that would make it 
easier to identify questionable or ineligible applications so 
they could be flagged for further verification.
    We also identified ways that FNS could improve the program 
integrity and oversight of the WIC Program. Our 2013 review 
found that FNS monitoring reports identified concerns about 
income eligibility determination policies in a third of the 
States reviewed. Yet FNS had not used this information to 
target assistance to States.
    In response to our recommendation, FNS developed a process 
for reviewing and acting on the results of its monitoring 
reports.
    In addition, in 2014 we found that FNS had provided limited 
assistance to States in preventing online infant formula sales, 
a practice that is prohibited under program rules. FNS has 
taken action to help reduce the likelihood of online sales and 
is currently developing guidance on best practices to 
disseminate to States later this year.
    Finally, our May 2018 report on the Summer Food Service 
Program identified additional areas where FNS could improve 
program integrity. For example, we found that FNS did not 
collect reliable data on program participation and that 
estimates were calculated inconsistently from State to State 
and from year to year. FNS has since reported plans to address 
this recommendation.
    Turning now to improper payments, USDA currently reports 
improper payments in four child nutrition programs: School 
Lunch and Breakfast, WIC, and the Child and Adult Care Food 
Program. In Fiscal Year 2018, USDA reported improper payments 
of $1.8 billion in these programs. This represents just over 1 
percent of the $151 billion in improper payments Federal 
agencies reported across the Government that year.
    In recent years, annual improper payment rates were highest 
in the school meals programs, with rates of about 15 percent 
for School Lunch and 24 percent for School Breakfast. Improper 
payments in school meals programs remained generally steady 
until Fiscal Year 2018 when USDA changed what it considers to 
be an improper payment. This change resulted in improper 
payment estimates that are substantially lower than those from 
prior years. USDA reported that it made this change after 
consulting with the Office of Management and Budget.
    With regard to other child nutrition programs, following a 
2018 Inspector General report on the Summer Food Service 
Program, USDA reassessed the program's improper payment risk, 
determined it to be high risk, and is moving forward in 
developing an estimate for this program.
    In conclusion, USDA's child nutrition programs play a 
critical role in ensuring that the Nation's children have 
access to needed nutrition. USDA has taken several actions to 
improve the integrity of these programs, and we continue to 
monitor their progress in addressing our recommendations and 
reducing improper payments.
    This concludes my statement. I am happy to answer any 
questions you may have.

    [The prepared statement of Ms. Larin can be found on page 
46 in the appendix.]

    Chairman Roberts. Let us start with Mr. Lipps. I am pleased 
the Department was able to secure the progress made by schools 
to serve more nutrition meals while returning some local 
flexibility to school mean planning. Can you talk to what has 
changed and what has not changed in the nutrition standards 
that were just finalized? Do you anticipate additional changes?
    Mr. Lipps. Thank you, Mr. Chairman. The final rule that we 
issued in December provided flexibilities to school to offer 1-
percent flavored milk, to have 50 percent of their whole grain 
items be whole grain rich, and delayed the implementation of 
the date of Target 2 on sodium. What did not change is the core 
requirements of the nutrition standards of the school meal 
programs.
    What we see as we look at that, when you look at things 
like plate waste, is that we have carefully at FNS calculated 
the nutritional requirements of those students. If they are not 
consuming the foods provided on those plates, they are not 
getting the nutrition that is provided to them. So we want to 
give the local school operators who look those kids in the eyes 
every day some minimal flexibility to make sure that kids are 
getting meals that they will eat so that they are consuming 
that nutrition.
    With regard to future changes, we continue to listen to our 
customers who run these programs each and every day, to your 
constituents who run and who eat these programs, and we will be 
considering those issues as we move forward if more flexibility 
is needed or if we are at a place that works for everybody.
    Chairman Roberts. Thank you.
    For either Mr. Lipps or Ms. Larin--probably to you, Ms. 
Larin--I am curious for your thoughts on program integrity. In 
your written testimony, you discuss two 2014 GAO reports on 
school meals. In particular, can you elaborate for the 
Committee how State oversight of local school food authorities 
is integral to child nutrition program integrity?
    Ms. Larin. Yes. As you said, State oversight is critical to 
program integrity, and in our 2014 work, we looked at that 
State oversight, and we found a couple of concerns.
    One of those concerns was that States were focusing more on 
providing technical assistance to school food authorities in 
implementing the new changes to the nutrition requirements 
rather than focusing on compliance. We made a recommendation to 
USDA, and in response they have strengthened their oversight 
and focused more on compliance and implementing corrective 
actions.
    Chairman Roberts. Mr. Lipps, can you discuss the 
Department's goals for improving the integrity of States' 
administration of the school meal programs through training and 
technical assistance, please?
    Mr. Lipps. Yes, sir. I do want to say that we appreciate 
GAO's partnership on this front in bringing issues to us and 
helping us find resolution to those. She is correct that 
States' oversight of these programs is extremely important as 
we work with States to help schools administer these programs 
well.
    We work closely with States but also with school districts 
on providing guidance and technical assistance on opportunities 
to run these programs better. Our staff are present at 
conferences in State school districts on a regular occasion. I 
spoke at one conference where our staff presented over 30 
different sessions providing technical assistance to both State 
agencies and schools on how to better run their programs.
    We also produce at the national level a lot of helpful, 
useful tools for both States and school districts. We have put 
our a verification toolkit to help schools better understand 
how to verify school meals applications. We developed at FNS an 
online school meal application that helps reduce error rates in 
those school meals applications. So we have a number of 
opportunities to continue to provide that technical assistance 
and a wonderful staff that is committed to doing that.
    Chairman Roberts. Ms. Larin, your testimony indicates that 
of the 14 GAO recommendations, the Department of Agriculture 
has addressed 9, taken steps to address 1, and is planning to 
address the remaining 4. Can you elaborate on that?
    Ms. Larin. Yes. USDA has taken steps to address all of the 
recommendations we have made with regard to the school meals 
programs. We have one outstanding recommendation in the WIC 
Program to prevent online formula sales, and they have taken 
some steps to address that. We still have recommendations 
outstanding for the Summer Food Service Program. That was work 
that we just completed in May 2018, and the Department did 
agree with those recommendations, but they are not yet 
implemented.
    Chairman Roberts. I appreciate that.
    Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. Thank you again 
to both of you. These are such important programs, and it is 
important that we have accountability and transparency and 
oversight. So we appreciate the input of GAO and the fact that 
USDA is following through closely, working to make improvements 
where it is recognized that there need to be improvements. So 
thank you very much for that.
    I think it is important to clarify a couple of things as we 
talk about improper payments because, Ms. Larin, improper 
payments for school meals do not just mean a child who is not 
eligible is getting a free meal, correct? It could also be a 
child receiving a reduced-price meal who should be getting a 
free meal. Isn't that correct, it can go either way? Improper 
payments can be too much, too little. Is that correct?
    Ms. Larin. That is correct. Improper payments includes both 
overpayments and underpayments.
    Senator Stabenow. Which is important, I think, for us as we 
look at this.
    If a family does not respond, even if a child could 
actually be eligible to receive a free or reduced-price meal, 
is that still considered an error if they do not respond? In 
other words, in this case the family is not responding. The 
child could be eligible. As I understand it, that has been 
viewed as an error. Is that still true?
    Ms. Larin. If a child is not even enrolled in the program, 
they would not be counted in the improper payments.
    Senator Stabenow. If they are enrolled but somehow the 
family is not responding on the paperwork, is that viewed as an 
error?
    Mr. Lipps. Senator, I am not sure specifically what you are 
referring to, but I think it may be a case where we are 
verifying eligibility of a child and there is questionable 
information on the application, a parent will not respond. If 
we cannot verify that, I think we are required to count that as 
an error.
    Senator Stabenow. Count that as an error.
    Mr. Lipps. That is correct. There are some where, in fact, 
the child would be eligible but we cannot verify that.
    Senator Stabenow. Okay. Both to Mr. Lipps and Ms. Larin, 
Mr. Lipps, you mentioned the web-based applications as a way to 
reduce errors. USDA has regularly noted that direct 
certification has also helped with program integrity. I wonder 
if you both could talk a little bit more about the 
opportunities like these to utilize technology to improve 
integrity without jeopardizing meals for children in need.
    Mr. Lipps. Sure. Senator, anytime we can match across our 
15 programs eligibility standards where folks have already 
provided the required information for one program and become 
eligible, it makes sense for everybody along the chain, from 
the Feds to the States to the recipient, to allow direct 
certification of that. It reduces the errors because they do 
not have to provide the information multiple times. We do some 
of that now. We are testing some of that now, and there are 
certainly opportunities to improve that in the future.
    Senator Stabenow. All right. Ms. Larin?
    Ms. Larin. Yes, when we looked at the verification process, 
the recommendations that we made were really around the 
applications that were submitted individually by the families. 
That is where most of the errors were. Direct certification and 
community eligibility is another process that reduces errors in 
certification.
    Senator Stabenow. Great. Are there technologies that might 
also help reduce the burden on schools administering the 
programs as well as helping with errors related to meal 
counting?
    Mr. Lipps. Yes, ma'am. We have a team of folks at FNS that 
are continually dedicated to looking at that, and they have 
working groups talking to State agencies and schools about 
opportunities for improving that. Obviously, the online school 
meals app was a big part of that. We have a new online buying 
guide for school meal service professionals that we put out. 
Technology is large improvement for, as the Chairman mentioned 
in his opening statement, the many constraints that school 
districts face in trying to run this program.
    Senator Stabenow. I think that is very important.
    Just in general, big picture, what percentage of schools 
were in compliance with school meals nutrition standards in 
2018, prior to your final rule?
    Mr. Lipps. I do not know that stat exactly, Senator, but it 
is the overwhelming majority of schools.
    Senator Stabenow. Well, I am proud to say in Michigan it is 
99.99 percent.
    Mr. Lipps. I think that is reflective of the country.
    Senator Stabenow. We are trying to find the one place 
where--we do not know where that is.
    Mr. Lipps. We will help you.
    Senator Stabenow. Yes, so 99.99 percent. So I would say our 
schools are working hard and doing a good job.
    Mr. Lipps. They are.
    Senator Stabenow. Thank you.
    Also, Summer EBT, Mr. Lipps, this has been, as I mentioned 
in my opening statement, extremely successful in Michigan, in 
many places but especially in Flint where it has been helping 
to reduce the negative effects of children being exposed to 
lead to get good nutrition. I am concerned, though, that the 
Secretary is planning to shift funding away from current 
States, even if the States are running effective programs to 
address summer hunger. This is a real concern of mine.
    Can you explain the specific data you hope to acquire in 
new locations or with new lead agencies that would justify de-
prioritizing assistance to children that still face hunger in 
States like Michigan?
    Mr. Lipps. Well, let me start by saying, Senator, I do not 
think we are de-prioritizing anybody who faces hunger. That 
money that we receive for those summer demonstration projects 
is for demonstrations. We have been receiving it for a long 
time. There are a number of children who have been fed for a 
long time and a number of them who have had no access to that. 
We have great data on Summer EBT. You are right, it has been a 
successful program. We find that it does reduce particularly 
very low food insecurity in children. We think it has shown 
great results.
    The Secretary and I were interested in testing 
demonstrations that show us new things that we can learn from 
those programs, which is what we were asked to do in this demo 
authority. So, specifically, current States were not excluded, 
but we did put out an RFP for the summer to ask States that 
want to run the program to show us how they can test new 
methodologies over a longer period of time. Because of how this 
money is provided in the appropriations process, we have only 
been able to test this a summer at a time with data, and we 
think running it this way may be useful in seeing what we can 
garner for more long-term oversight.
    Senator Stabenow. How are you going to make sure, though, 
that children are still getting the food they need? Testing is 
great. Trying out new things is great. Children not being able 
to eat in the summer, not so great. So how are you going to 
make sure that, you know, in current places where this has been 
successful and is critically needed do not lose out because we 
are designing this as a demonstration project to test areas?
    Mr. Lipps. You know, the program started as a 
demonstration. It has been demonstrating for, I think, going on 
7, 8 years now. So I think that is a great conversation that we 
hope to all have as we continue with CNRs, is how we work to 
make sure that all children that are hungry in the summer have 
access to food. We have a number of programs that run. If the 
program this summer ends up moving out of areas that it is 
currently in, we certainly want to work with those States to do 
everything they can to run the other programs that they have 
access to for children who have been having access to the 
Summer EBT Program.
    Senator Stabenow. So maybe we should stop calling them 
``demonstration programs'' and just start calling them ``summer 
feeding program''?
    Mr. Lipps. I think we would be happy to have that 
discussion. Unfortunately, that is what the law calls them, 
and----
    Senator Stabenow. I know, but we write the law, so I'm 
asking you--we have the capacity to change that.
    Mr. Lipps. We are prepared to sit at the table and work 
with you on that, yes, ma'am.
    Senator Stabenow. [Presiding.] Okay. Thank you very much.
    Senator Ernst.
    Senator Ernst. Okay. Thank you, Ranking Member Stabenow.
    I do want to start by saying thanks to all for being here. 
This is a really important topic for so many of our children 
back home in Iowa, and there are a few barriers that inhibit a 
child's development that are greater than hunger, and far too 
many of our children and families really struggle to meet the 
most basic of human needs.
    So I hope that we can start this process to reauthorize the 
child nutrition programs and come together and provide 
flexibility and eliminate inefficiencies so that our schools 
and other stakeholders can focus on providing nutritious meals 
for those that really need them rather than spending time on so 
much paperwork and inspections. It is important, but we really 
just need to make sure our children are being fed.
    So, Mr. Lipps, I would like to start with you. I have heard 
a number of concerns from parents and children and, believe me, 
when my school groups come out and I ask them if they have any 
questions, this is always an issue that they bring up. The 
concerns are about the portion sizes in the School Lunch 
Program. Some are worried that there are kids that receive the 
same portion size no matter what age they are. So you may have 
a first grader and an eighth grader receiving the same portion 
size, and in that case you have got either one child is 
receiving way too much food or one child is not receiving 
nearly enough food.
    So is this a concern that you have heard about during your 
outreach? If so, what is the USDA doing to address this 
concern?
    Mr. Lipps. Senator, we do hear that. Interestingly, we hear 
the opposite from some of the food service operators that, you 
know, our school meal patterns do provide different portion 
sizes for the different age groups, and some of the school food 
service operators want the flexibility to vary that for their 
children.
    The Secretary believes that the school food service 
operators, as I think you would agree, are the ones on the 
ground best able to make those decisions. I think part of that 
is we want to make sure that children are able to be served 
meals that they can eat so that they are able to consume all 
the food on their plate. If they are not, regardless of the 
portion size, they are going to continue to be hungry. We 
certainly continue to work and listen to schools on that front, 
and we will continue to do so as we move forward.
    Senator Ernst. Okay. That is really important, and I know 
not just our school, there are a number of other schools--my 
daughter graduated from high school just a few years back, and 
as parents our booster clubs would have to bring in additional 
food after school, especially for those that were athletes and 
competing in sports because they just did not get enough food 
throughout the day through the School Lunch Program.
    So there are, you know, mandated portions. There is, of 
course, mandated nutritional requirements. We do see a lot of 
food waste as well, especially with our younger children. In 
your opinion, is there an action or actions that the USDA can 
take then to alleviate the amount of food that is thrown out of 
schools?
    Mr. Lipps. Yes, ma'am, I do. The Secretary's flexibility 
that he provided on whole grain, sodium, and fluid milk were a 
big step in that direction. I do not think that anybody is 
telling us that we need a major change in the nutrition meal 
pattern requirements for the school meals, but there are some 
flexibilities around the edges that we continue to hear from 
schools that we will continue to look at as we move forward to 
give them the flexibility to make sure that works. The school 
meal service operators everywhere we go are committed to 
providing nutritious food to kids, and they want to make sure 
that they have food that they will eat with full stomachs and 
good nutrition.
    Senator Ernst. So can you talk about maybe some of the 
recommendations with flexibility? What would a school be able 
to do then?
    Mr. Lipps. The only three that we can talk about now are 
the flexibility on the opportunity to serve 50 percent of their 
grains as whole grain rich, the flexibility to serve 1-percent 
flavored milk, and the delay of the Target 2 in sodium to 
provide them some time and opportunity to introduce those foods 
to kids. We do continue to hear more about that, and so we are 
looking at that as we move forward.
    Senator Ernst. Okay. I appreciate that very much.
    I know that the Ranking Member, Ms. Larin, had talked about 
improper payments. What is the fastest and easiest way, just 
very quickly, for the USDA to correct this? In the 30 seconds 
we have remaining.
    Ms. Larin. I do not know that there is a fast and easy way. 
I mean, they have taken a number of steps to try and reduce 
improper payments. To date, the IG reports have not shown a 
significant decline. I think that some of those actions have 
not fully been implemented and assessed.
    Senator Ernst. Okay. Good job. Fifteen seconds. Okay. Yes, 
we do need to work on some solutions in that area, but I do 
thank you both for your time today. Thank you.
    Senator Stabenow. Thank you very much.
    Senator Smith.
    Senator Smith. Thank you, Ranking Member Stabenow and Chair 
Roberts. Thanks, both of you, for being with us today and for 
your service. I very much appreciate it.
    Mr. Lipps, I would like to dive into some issues around 
native communities and child nutrition. I am interested in this 
because I also serve on the Indian Affairs Committee and the 
HELP Committee, so this is kind of a ripe topic.
    Some of the data in this area is really quite staggering. 
One in four Native Americans is food insecure. In Minnesota, 33 
percent of pregnant Native women experienced food insecurity in 
the 12 months prior to their baby being born. Childhood 
obesity, which is often associated with low incomes and poor 
nutrition, is common to many Native families.
    In 2016, about 60 percent of Native children under 6 are 
enrolled in SNAP, and 23 percent of Native children between the 
ages of 2 and 5 in the WIC Program were obese.
    So these are children that have the same potential and 
should have the same opportunities, whether they are living on 
tribal lands or whether they are living in urban indigenous 
communities like Little Earth in Minnesota, in Minneapolis. Yet 
they have less access to healthy food, and because of their 
poverty they, therefore, have less--you know, their health is 
paying the price.
    I know the Secretary has put great emphasis on focusing on 
customer service, and I would like to hear a little bit from 
you about what you and the Department are doing to do outreach 
and education and consultation in tribal communities.
    Mr. Lipps. Sure. Senator, you heard me talk in my opening 
statement about listening to our customers, and I am happy to 
say that we have had--I have sat through six tribal 
consultations since I started this job just over 18 months ago 
to listen to the needs of the tribes and how we can serve them 
better. Much of that discussion is about the Food Distribution 
Program on Indian Reservations, which is very important to the 
tribes, but certainly they have access to all of these programs 
that we talked about today, and we want to continue to work 
with them to make sure that they are increasing the enrollment 
of the folks who are eligible for those programs and that we 
are serving them well.
    I did tour a tribe in Wisconsin who is doing a wonderful 
job both with access to programs I do not run on health care 
but also to our programs on FDPIR and school lunch and the 
nutrition that they are bringing to their school lunch through 
farm-to-school programs and other things.
    So there is some really good stuff going on in tribes. I 
think that we can certainly have a conversation about how we do 
better about bringing access to those tribes in, but these 
consultations--the FNS staff have regular consultations, and I 
think we are all trying to move in the same direction. I am 
certainly open to any further ideas that you have on that.
    Senator Smith. Well, thank you very much. I appreciate your 
attention to that, and my office would love to work with you 
more on what we can do to address these deep disparities that 
are affecting the lives of these kids who are not going to have 
the same opportunities if they--as you said, as both of you 
said so well, if you go to school with an empty stomach, then 
nothing else is going to work in your life.
    Mr. Lipps. Thank you.
    Senator Smith. I want to next ask you about something that 
is very near and dear to my heart, and, actually, Senator 
Stabenow brought this up. I think you said 99 percent of the 
school districts--99.9 percent----
    Senator Stabenow. 99.99, for the record.
    [Laughter.]
    Senator Smith. Well, in Minnesota, the number is 93 percent 
of school districts are successfully serving healthy meals that 
meet the strong nutrition standards that we have set up. What I 
have seen firsthand visiting schools is a big determinant of 
that is how important it is that schools have the ability to 
prepare meals onsite, really healthy meals. This is an area 
where we still have a lot of work to do in Minnesota. I think 
96 percent of school districts in Minnesota are looking for at 
least one--they have one place where they need to improve their 
equipment in school.
    So I just have a couple of seconds left, but could you talk 
a little bit about how the Department sees this opportunity and 
what we can do to make sure that we can help, continue to help 
schools expand their ability to prepare foods onsite?
    Mr. Lipps. Sure. I do not have the numbers on that, but I 
know the Department has given out a lot of school meal 
equipment grants that you have provided over time to schools to 
help with that, also a lot of technical assistance and guidance 
on how to use their current equipment to provide those 
services. You are certainly right about those things, and we 
continue to work with schools and their constrained budgets 
about how they move forward with the equipment that they need 
to prepare the meals that we are asking them to prepare.
    Senator Smith. In Minnesota, my notes tell me it is about 
$400,000 that has helped Minnesota schools make this advance. 
To the point that you raised about you can serve nutritious 
meals but if all that food gets left on the plate because it is 
not what kids want to eat because they do not even know what--
they do not have any experience eating healthy food, it is a 
big opportunity. It also creates opportunities for farm-to-
school efforts as well, which is another real bonus.
    Mr. Lipps. It is a great program.
    Senator Smith. Thank you.
    Chairman Roberts. [Presiding.] Thank you, Senator Smith.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    I will start with my questions for you, Mr. Lipps, and I 
appreciate your testimony, and Ms. Larin as well.
    In your testimony, you described holding roundtable 
meetings with the WIC community, and we are happy about that. 
Whenever there is an effort to reach out to individuals or 
communities affected by the Women, Infants, and Children 
Program, I certainly appreciate the work you do on that kind of 
roundtable activity.
    Given the immense value of the program from a public health 
perspective, it is concerning that only 29 percent of eligible 
4-year-olds participate in it. That is a 2014 number, but no 
matter what year it is, it is a bad number.
    In your conversations with stakeholders, were there any 
recommendations made that you can share with us or ideas 
discussed for how we can ensure that more WIC-eligible children 
and mothers participate in the program?
    Mr. Lipps. Sure. Thanks for that question, Senator Casey. 
It has been interesting in these roundtables. You know, WIC 
participation has been declining steadily since--I think it 
peaked in 2009, and it has been declining since 2010, and we 
have had discussions with the advocate community as well as 
internally at USDA, and we have not been able to pinpoint what 
the specific issues are with that. There are a number of them--
declining birth rates; some of them are obvious.
    One of the biggest concerns is what you raised, that 
children age in the program, they tend to drop off, and so 
people come on early, but we do not hold on to them. The WIC 
data shows that one of our best places for improving nutrition 
is in WIC through that food package. We have good data showing 
that children respond to that.
    You know, there are number of factors. People talk about 
the process in WIC. If you have multiple children, your State 
may require you to come in for multiple visits. In some places, 
it is run a little bit like a doctor's office. You wait in the 
waiting room. You wait in the clinical room. Then you go to 
your breastfeeding peer counselor, and you wait again. If you 
are asking a Mom to do those three things and you want her to 
be out working, that is not feasible for them.
    So I think there are some customer service opportunities in 
the program, making sure that the food package is accessible to 
them, but we continue to have discussions with them on that and 
try to find the right balance of the flexibility we allow the 
States in running the program but ensuring that we have a 
Federal policy of making sure that it is accessible to those 
folks.
    Senator Casey. So maybe streamlining for the customer in a 
sense might be part of it.
    Mr. Lipps. Yes, sir. I think that is part of what we are 
looking at.
    Senator Casey. Thank you. I look forward to following up 
with you on that.
    You also mention in your testimony that ``47 WIC State, 
Territory, and Tribal agencies have successfully implemented 
EBT Statewide and the remaining 43 are in the planning or 
implementation stage.'' Do you anticipate all agencies will 
meet the October 1, 2020, deadline for implementing WIC EBT?
    Mr. Lipps. The short answer is yes, sir, though there are 
some challenges. We do have a late-breaking update to my 
printed testimony. It is now 48 States implemented and 42 
remaining. Some States have had some significant challenges 
with regard to contracting issues and certainly some, like 
Puerto Rico, with regard to disasters. So we are doing 
everything we can to provide them technical assistance to meet 
the 2020 deadline. At this time we think that everybody is on 
track to do that, but there are a few that we are watching to 
try to help them get there through all means available.
    Senator Casey. I appreciate that.
    I wanted to ask you more of a Pennsylvania-specific problem 
or question in this case. We have got 67 counties; 48 of them 
are considered rural in our State. When they are designated 
that way, of course, there are consequences to that in terms of 
Federal programs. Rural communities, as you know, as well as 
anyone knows, often face both significant barriers and 
implementation challenges when it comes to the Summer Food 
Service Program. Senator Stabenow was talking about that. Part 
of that in rural areas is due to transportation issues or the 
site or the location of sites where children and families can 
go.
    Could you focus on some of the efforts that the FNS is 
doing to help rural communities improve access to the Summer 
Food Service Program?
    Mr. Lipps. Sure. Yes, sir, I agree with all those things 
that you said and certainly understand the unique challenges of 
the rural communities. You know, we continue to test new 
opportunities to serve them through Summer EBT and other 
programs, and so we will continue to study those and provide 
that back to you.
    Specifically with regard to the Summer Food Service 
Program, we take a number of actions. We have got a partnership 
with our rural development agency to help identify sites, and 
certainly working with the advocate community, there is a big 
push by some of our partners last summer and particularly this 
summer about helping to identify sponsors in places where 
children can congregate and how we get them to those sites in 
the summer. It is not an easy question or one that we are going 
to solve soon, but we will continue to do everything we can.
    Senator Casey. I appreciate that. It is just a real tragedy 
when there is a break in the seam, so to speak, where kids are 
not getting the help in the summer. Thanks very much.
    Chairman Roberts. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. Mr. Lipps, thank 
you, Mr. Deputy Secretary, for being here, and, Ms. Larin, 
thank you for being here.
    I want to talk about first the importance of the Free and 
Reduced Price School Lunch Program. Thank you for your work on 
that. In Ohio, we are concerned, as I know we are everywhere in 
the country, about the takeup of the number of young people 
that are not in summer feeding programs. I will save that for 
last. I want to talk mostly about WIC.
    Ohio is 42nd in the country in infant mortality, far too 
high in maternal mortality also. Twelve percent of babies born 
in Ohio were born before the 37th week of pregnancy, yet like 
most of the rest of the country, Ohio continues to see a 
decline in WIC participation rates. I do not think it can be 
explained entirely by somewhat lower birth rates and from a 
growing economy. The growth in the economy has not been in Ohio 
nearly what it has been in the other parts of the nation but, 
nonetheless, the national declines in WIC are concerning.
    Talk to us about, first of all, just the role WIC plays in 
helping the Nation lower infant mortality rates.
    Mr. Lipps. Sure. Senator, I do not have specific statistics 
on that, but the WIC program has positive results all the way 
around, from pregnant mothers to nutrition for children and for 
what we provide the mothers through their time in 
breastfeeding. It has been shown to be a very successful and 
very supportive program.
    Senator Brown. Can you break down--is there a way to break 
down effectiveness for WIC programs for infant mortality and 
WIC programs for premature births?
    Mr. Lipps. I do not know if we have data on that, Senator, 
but I will certainly check on that and get back with you.
    Senator Brown. Okay. I understand that FNS continues to 
study WIC caseload declines. The declines have gone on longer 
than they should have without figuring this out and reversing 
it.
    Talk to me about what steps that you can take to improve 
program enrollment without undermining program quality. I know 
you have done recent listening sessions. Tell me what will come 
of that process.
    Mr. Lipps. Sure. Senator, we are continuing to hold those 
listening sessions. As you noted, some of the decline in 
enrollment is good decline in enrollment. It is improvement in 
the economy. Some of it is reduction in the birth rate, so 
there are some natural factors in that. What we want to know 
is, beyond those, what is causing people not to enroll in the 
program or what is causing them to drop off soon after their 
children reach the age of 1. We have a continual decrease in 
the percentage of participation up to age 4 and 5, and so we 
want to work on that.
    You know, we have heard issues about accessibility to the 
program, how long it takes people to go to the clinic office. A 
lot of this is flexibility that we provide the States, and so 
we have to continue to look at balance in providing State 
flexibility and maybe some national leadership on how we can 
better serve those recipients.
    Technology solutions I think are available, and, you know, 
we hear some concerns about the food package, but we want to be 
very careful in that because the WIC food package has been 
shown to be very effective in increasing the health of the 
children participating in the program.
    Senator Brown. Thank you for that, Mr. Lipps.
    Is there a problem? It seems--when John and I were talking 
to my staff, there seems to be a bit too Rube Goldberg kind of 
process to sign up. When you sign up for Medicaid, you sign up 
for SNAP, you sign up for WIC, often in different places. Is 
there some effort--I mean, the States should for sure do it 
better, but is there some effort from the national level to 
streamline that so that young pregnant women or young mothers 
or young families can do this a little bit more easily?
    Mr. Lipps. We are always across certainly our 15 nutrition 
assistance programs but certainly with our Federal partners 
looked at opportunity for direct certification where, if you 
qualify with one with the same limits, you can qualify for 
another, and opportunities where States can share that data. It 
is complicated with the way the systems and rules are set up, 
but we continue to work on that stuff and would certainly be 
happy to provide you technical advice on that as we see 
opportunities with CNR coming.
    Senator Brown. There would be a huge number of people that 
would be eligible. Those States that did not do Medicaid 
expansion is another question, maybe, but maybe not in some of 
these. There would be a huge overlap SNAP, Medicaid, and WIC, 
correct?
    Mr. Lipps. I think that is true, Senator, yes.
    Senator Brown. Okay. Last question. I had mentioned the 
Summer Feeding Program. We have in Ohio somewhere on any given 
day about 600,000 children in the Free and Reduced Lunch 
Program, 700,000 over the course of a year, 600,000 on any 
given day. Fewer than 100,000 children are fed in the Summer 
Feeding Program for a whole bunch of legitimate and maybe 
sometimes less legitimate reasons.
    Tell us about the success or potential concerns with non-
congregate feeding pilot projects that have been in place for 
the past several years.
    Mr. Lipps. Yes, sir. I think anytime you can get food to 
children in need in the summer, we call that a success. There 
are always a lot of questions around the integrity requirements 
in those programs. Those are things our friends at GAO and OIG 
talk to us about regularly, and we look at those things. I 
think there are opportunities for us to talk about these in the 
child nutrition reauthorization process about how we feed those 
kids who cannot get to a congregate site. Summer EBT is one of 
those options. I think there are others that we can look at. 
Some people have concern if you send the food off with the kid, 
do they consume it or do they take it home and somebody else 
consumes it?
    So there are a lot of questions involved in that. We 
continue to look at some of them, but we all know that we have 
hungry kids in the summer that need to be fed, and we need to 
find a path forward on that.
    Senator Brown. That is not a terrible thing if they take it 
home and feed somebody else.
    Mr. Lipps. It is not. As long as we are feeding somebody 
hungry.
    Senator Brown. Okay. Thanks.
    Chairman Roberts. I thank the Senator.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Thank you all for 
being here this morning.
    South Dakota schools put a tremendous amount of effort into 
ensuring that the students have the fuel they need to get 
through the school day, and for some students school meals are 
the most nutritious part of their diet. Child nutrition 
programs obviously play a critical role in ensuring that 
students have access to nutritious meals, and I look forward to 
working with the members of this Committee as we reauthorize 
these important programs, hopefully move that legislation this 
year.
    Mr. Lipps, the Healthy Hunger-Free Kids Act of 2010 
included an amendment that I added to set aside funding for a 
demonstration project to be conducted on rural Native American 
reservations. The goal of the project was to test innovative 
strategies to address hunger, obesity, and Type 2 diabetes on 
reservations. Two tribal demonstration projects were 
subsequently conducted--one by the Chickasaw Nation Nutrition 
Services and the other by Navajo Nation Division of Health.
    Can you speak to the results of these demonstration 
projects? Are there ways we can build-upon these projects 
through this upcoming child nutrition reauthorization?
    Mr. Lipps. Yes, sir, and not unique to some of this other 
stuff we have been discussing, Senator, there are a lot of 
opportunities to feed kids in summer, a lot of ways to do 
that--some challenges with all of them, but certainly some 
benefits in all of them. So we continue to look at those.
    Specifically with regard to the tribal demonstrations that 
we ran per your amendment, we did have some operational 
challenges with one of those, which limited the ability for us 
to get data that we could produce in a steady top manner, but 
we were successful in getting food out to children in all of 
these programs. We did learn some good things about some of the 
programs and their ability to increase consumption of fruits 
and vegetables and other healthy foods to those kids in the 
summer.
    We have reports on those that I would be happy to share 
with you. We have had success across the board and want to 
continue to have discussion with you all about the best way to 
move forward on feeding more kids in the summer.
    Senator Thune. Well, I would love to see the reports on 
that and welcome the input as we try and build on that in this 
current legislation.
    Again, for you, Mr. Lipps, as you know, many of the 
children who rely on child nutrition programs also rely on 
SNAP. The data has suggested that there is a correlation 
between the consumption of SNAP benefits and academic 
performance. Research has found that student performance tapers 
the farther you get from the date of the SNAP benefit transfer.
    Do you have any thoughts on whether granting States the 
flexibility to modify their SNAP disbursement schedules perhaps 
to allow 1 month's allotment of SNAP to be distributed in two 
or three installments each month might boost student 
performance
    Mr. Lipps. I think we would be interested in seeing data on 
that situation, Senator. The SNAP statute prohibits split 
issuance of benefits throughout the month, but we do have 
demonstration authority that would allow us to test that. We 
had a State that attempted to do that previously, and due to 
systems issues that they had on other issues, they did not move 
forward on that. Split issuance is a complicated process, but 
we would surely be open to a State who wanted to test that and 
see if they could resolve some of the issues that you brought 
up.
    Senator Thune. Would you see if that--would that enhance 
the benefit of other child nutrition programs, do you think?
    Mr. Lipps. I think anytime you have folks running out of 
food early in the month, it can help pull those along so that 
they are having access to food not only when they are at school 
or at a CACFP site, but when they get home that they have food 
as well. So there is certainly some opportunity to see what the 
results of that would be.
    Senator Thune. Okay. USDA has been working to reduce 
regulatory burdens in child nutrition programs. Could you 
comment on the Department's efforts to identify duplicative 
regulatory burdens?
    Mr. Lipps. Yes, sir. We have done a lot of work on 
streamlining operations, particularly in summer food service 
programs, CACFP and those type of programs. We continue to 
enlist customers on that and are looking at more opportunities 
on that as we move forward. All of these programs start with 
paperwork requirements that are important to the integrity of 
the program. As we run them, we find opportunities to 
streamline that, and the agency staff are very committed to 
talking to our operators about how we can serve them on that 
front and continue to do so. As you know, the Secretary is very 
committed to a deregulatory agenda.
    Senator Thune. All right. Thank you.
    Ms. Larin, school nutrition directors in my State have 
raised concerns with the added cost and burden associated with 
USDA's change from the previous 5-year administrative review 
cycle to a 3-year administrative review cycle for school food 
authorities. I appreciated USDA's announcement in February that 
the Department would allow State agencies to request waivers 
from the 3-year review requirement. How would returning to a 5-
year administrative review cycle for schools consistently in 
compliance affect program integrity?
    Ms. Larin. You know, the cycle time is not something that 
we have looked at in our work. We have looked at the 
administrative review process and, when that was initially 
announced, identified some concerns with the implementation. I 
think FNS has taken some steps to provide additional guidance 
and support to make those administrative reviews more 
effective.
    Senator Thune. Okay. My time has expired. Thank you, Mr. 
Chairman.
    Chairman Roberts. Thank you, Senator Thune.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Lipps, after speaking with individuals in Nebraska, it 
has become clear that issues remain in the Competitive Food 
Sales Program. One repeated concern is that, despite the 
program being in effect for several years, some districts and 
States still lack clarity on who is responsible for overseeing 
compliance at the local level. I do not think State departments 
want to be the food police at the local level. Frankly, neither 
do school superintendents.
    My second concern is enforcement standards. It is my 
understanding that States are unclear on how they can enforce 
these rules. So while this is a confusing program, taking up a 
lot of time, it stifles some streams of discretionary funding 
for schools, and there is really no way to ensure people 
comply.
    What guidance has FNS sent to the States and SFAs on this? 
What does FNS intend to do to address these issues in the 
Competitive Food Sales Program?
    Mr. Lipps. Thank you, Senator. That is an important point 
that I do hear when I am out and about on the competitive foods 
issue. It is difficult. I assure you that I do not want to be 
the food police either. We do think that there is important 
balance when we are talking about this program. We want to make 
sure that our school lunches have a foundation in nutrition. As 
you know, the Secretary is committed to providing flexibility 
on that to make sure that school food service operators have 
the ability to serve that their kids will eat at their campus. 
We want to make sure there is balance in that with the other 
food that is available on campus, and that is really where 
competition food comes in.
    So there is a balance in that, as there is with everything. 
I am not sure that we are there yet based on what we continue 
to hear. The agency has done a lot of technical assistance 
presentations and guidance on that front, both the State 
agencies and schools, and we are committed to continuing to do 
that as we move forward.
    Senator Fischer. You say we are not there yet. How are we 
going to get there? Is it just through presentations to 
schools, or do you have a different idea on how to make the 
program really clear?
    Mr. Lipps. We are continuing--you know, the Secretary said 
when he put out his flexibility standards on whole grain, 
sodium, and milk, that he was going to continue to listen and 
look at opportunities if we need regulatory changes moving 
forward. So that is part of what we are doing now as we 
continue to look at folks to see if there are regulatory 
changes that need to be made to make this work, if there is an 
opportunity for better balance and ensuring that kids are not 
leaving school lunch to go buy competitive foods elsewhere on 
campus, but that they are having nutritional standards, but 
that we are not making the campus or the State be the food 
police. So we are committed to that balance. I cannot assure 
you that we have anything coming on that front yet, but we will 
continue to look at it.
    Senator Fischer. Do you have food service personnel giving 
you good ideas on how to address some of these issues?
    Mr. Lipps. They do. The Secretary and I have both held 
roundtables on this front, on all of the issues, and 
competitive foods does come up. Some folks have asked for more 
flexibility about what they can serve in competitive food based 
on what they serve in the food line, and there are complicated 
details in that. Certainly across that front, nobody is really 
asking that they be able to serve Snickers bars on the 
competitive food line. You know and I know that that is not the 
issue. So we are looking at flexibilities on the margins that 
might help them on that front.
    Senator Fischer. When you listen to food service people, 
what are their thoughts on the changes that have been made. Are 
kids eating lunches? You know, I visit schools all the time 
across the State of Nebraska. I am curious on what you are 
hearing.
    Mr. Lipps. Schools are very positive about the 
flexibilities provided in the final rule. As you know, Congress 
has provided much of those flexibilities in appropriations acts 
for quite some time, so it is not a major change. It is just 
comfort and long-term planning for them. As you know, schools 
have to buy a long way out to plan their menus in the way that 
we require them to do. So they are glad to have that finality 
and flexibility in that. I do think it helps folks. As we talk 
about the nutrition standards are no good, the calorie--we put 
a calorie limit in, and the kids do not eat half the food on 
their plate, then they are getting half of the maximum calories 
that we provide them, and that is a problem. As you know, 
Senator, the same is true particularly with milk and the 
nutrients that it provides. So we are going to continue to 
listen and see if further flexibility is needed on that front.
    Senator Fischer. We are pleased that students are drinking 
milk, and we are pleased they are eating beef. We have a number 
of ranchers in communities across the State of Nebraska that 
are providing that to local school district.
    Also, Mr. Lipps, when speaking to individuals in my State 
who are currently using CEP, they seem to believe that it is to 
their benefit and that there has been a slight reduction in 
administrative costs. Some districts are wary about whether it 
would alter their State aid formula in the State of Nebraska, 
the aid they receive from the State of Nebraska.
    Is this a nationwide concern? I know this program was a 
topic of debate during the last reauthorization process, so I 
guess I am just wondering why are schools not adopting the 
program, and what does the agency see as pros and cons?
    Mr. Lipps. Sure. I have not heard that specific State aid 
issue. I will talk to my folks, and we will get you additional 
information on that. Certainly as with any of the flexibilities 
in administrative issues, there are benefits and drawbacks on 
that front. CEP is a great opportunity at reducing 
administrative burden and ensuring that all kids in need have 
access to those programs. I think it is always important to 
mention that schools cost-share in the CEP, so when a school 
becomes a CEP school, we are not paying the full share for all 
of those students as there are some in who are not low-income 
to receive those benefits.
    We will continue to work on that as we move forward. CEP is 
an ongoing discussion about the right path forward on that 
front.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Roberts. We thank you, Senator Fischer. The 
distinguished Senator from Illinois, Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman. It is a 
pleasure to be here. Thank you to the witnesses.
    For more than 20 years, the State of Illinois has operated 
a unique program that provides affordable assisted living to 
low-income seniors and persons with disabilities. These 
supportive living facilities create a healthy environment for 
seniors and those with disabilities who are on Medicaid. There 
are roughly 150 of these senior living facilities in Illinois. 
About 8,000 people take advantage of them every working day.
    To serve these seniors and residents with disabilities, the 
facilities use their residents' SNAP benefits to serve meals. 
In other words, they pick up their food stamps, buy some 
macaroni and cheese, play bingo, and have a great day.
    For 20 years, the United States Department of Agriculture 
has approved this model, certifying these facilities to 
administer the SNAP benefits for the residents so that those 
who qualify for nutrition assistance can have a good warm meal 
with their friends.
    Now all of a sudden, the U.S. Department of Agriculture 
thinks there is a problem, maybe even a scandal, and these 
facilities are out of compliance. Never mind that the USDA 
recertified these facilities as recently as 2016 and reported 
no problems.
    I worked with Senator Duckworth, my colleague from 
Illinois, Ranking Member Stabenow, and Chairman Roberts. We 
were able to stop the U.S. Department of Agriculture from 
administrative overreach for 18 months in the farm bill. We 
have looked at the rules and statutory definition of ``food'' 
under SNAP, and I think the U.S. Department of Agriculture has 
found the wrong scandal. In fact, I think there is no scandal. 
To put it simply, you are missing the point. People are just 
trying to feed 8,000 needy people who can get together for 
lunch in a supportive facility.
    So I am going to ask for some commitments from you, which I 
think are reasonable and I hope you can answer with yes or no, 
if it is appropriate. After the expiration of the farm bill's 
18-month freeze on any SNAP terminations for these facilities, 
will you commit that the USDA will work with the residents, the 
facilities, the Illinois Department of Human Services, Senator 
Duckworth, and myself to provide adequate notification prior to 
any de-authorization?
    Mr. Lipps. Yes, sir.
    Senator Durbin. Is there no question that these 8,000 
disabled and elderly people are eligible for SNAP? No matter 
what happens at the end of 18 months, will you ensure the 
continuity of SNAP benefits for these 8,000 seniors?
    Mr. Lipps. Yes, sir.
    Senator Durbin. That is good. Thank you, Mr. Chairman.
    Chairman Roberts. Thank you to our first panel, and I 
appreciate your testimony. We really appreciate your expertise 
and your commitment. Well done to both of you. I would like to 
welcome our second panel of witnesses before the Committee.
    Our first witness is Mr. Josh Mathiasmeier. He has been the 
director of nutritional Services for Kansas City, Kansas, 
Public Schools since 2014. Prior to this role, he was a project 
director for the Kansas Department of Education, Child 
Nutrition, and Wellness team. He is a fellow graduate of Kansas 
State University, home of the ever optimistic and fighting 
Wildcats, and he has degrees in nutrition, kinesiology, and 
dietetics. He is a registered dietician.
    Welcome, Mr. Mathiasmeier. I am sorry I messed that up. 
Welcome, Josh, and I look forward to your testimony.

   STATEMENT OF JOSHUA MATHIASMEIER, DIRECTOR OF NUTRITIONAL 
  SERVICES, KANSAS CITY, KANSAS PUBLIC SCHOOLS, KANSAS CITY, 
                             KANSAS

    Mr. Mathiasmeier. Good morning, Chairman Roberts, Ranking 
Member Stabenow, and Committee members. Thank you for inviting 
me to speak today and for your interest in making sure students 
have access to healthy meals impacting students' success. I am 
honored and privileged to represent Kansas City, Kansas, Public 
Schools, the State of Kansas, and all food service 
professionals who are some of the most passionate and 
hardworking in this country.
    Child nutrition programs provide a strong safety net for 
our children by ensuring their nutrition needs are met while 
also providing nutrition education. As a part of our core 
principles, we strive to provide our students with high-quality 
food and excellent customer service.
    In all sections of business and industry, the 21st century 
student requires innovative approaches to encourage healthy 
choices. Through the use of innovative meal programs, we are 
able to increase the quality and variety of our offerings while 
appealing to the unique needs of today's students.
    We utilize innovative approaches in our School Breakfast 
Program by offering Grab and Go and Breakfast in the Classroom. 
By hosting breakfast meal service in the classroom or near 
building entrances, we are able to increase access to healthy 
meals and incorporate the breakfast meal into the school day.
    We also know that hunger does not stop after the school day 
or at the end of the school year. This is why we offer after-
school snack, supper, and summer meals to our students. The 
snack and supper meal is incorporated into the after-school 
event or activity and must include an educational or enrichment 
component. We bridge the gap during the summer by offering 
meals at sites such as pools, schools, libraries, community 
centers, parks, urban farms, community colleges, farmers' 
markets, and community housing complexes. By bringing the meals 
to where children already are, we remove barriers of access to 
healthy meals.
    Since we operate so many different child nutrition 
programs, we must adhere to all USDA regulations for each 
program. While many of these regulations are the same, there 
are several differences between programs which makes it 
challenging to streamline for efficiency. This also causes a 
great deal of confusion to operators who administer multiple 
programs. We encourage USDA to review these differences between 
programs and create consistency in child nutrition programs.
    As a part of operating child nutrition programs, we receive 
regular accountability and compliance reviews. We fully 
understand the need for the compliance and accountability of 
any federally funded program. Compliance and oversight ensure 
that each child has access to healthy meals impacting students' 
success.
    We are overwhelmed with the amount of administrative time 
and effort it takes to prepare for and compliance child 
nutrition program reviews by the State agency. In addition to 
State agency reviews, we are required to complete onsite 
monitoring reviews for each program. The reviews completed by 
the State agency and operators at the local level often 
overlap, with visits being completed multiple times at the same 
site for different child nutrition programs. We ask USDA to 
simplify and streamline both the review process by the State 
agency and the onsite monitoring reviews by program operators.
    We strive to meet the individual needs of our customers 
with their unique background and demographics. The customers we 
serve in Kansas City are unlike any group of customers in 
surrounding school districts. It is important for us to remain 
focused on the needs of our customers through local control of 
food, equipment, supplies, and resources. Through local 
control, we are able to stay nimble in meeting the constantly 
changing needs of our customers. We encourage USDA to continue 
giving local control for the many decisions that impact our 
customer's unique needs.
    Schools are a leader in culture change, instilling healthy 
habits for a lifetime. We have a passion for making sure 
students have access to healthy, safe, and high-quality meals. 
The child nutrition reauthorization act, known as the Healthy 
Hunger-Free Kids Act of 2010, provided historic changes in 
child nutrition programs and gives students healthier meal 
options. Implementation has resulted in increased consumption 
of fruits, vegetables, and whole grains.
    We encourage USDA to ensure we can efficiently and 
effectively serve students these meals because they are 
critical to their lifelong success.
    Thank you, Chairman Roberts and Committee members, for your 
interest in ensuring our children have access to healthy meals, 
and I am happy to answer any questions. Thank you.

    [The prepared statement of Mr. Mathiasmeier can be found on 
page 67 in the appendix.]

    Chairman Roberts. Thank you, sir. Thank you for being on 
time.
    Mr. Halligan, you have already been introduced by our 
distinguished Leader. Why don't you just proceed.

  STATEMENT OF MICHAEL J. HALLIGAN, CHIEF EXECUTIVE OFFICER, 
          GOD'S PANTRY FOOD BANK, LEXINGTON, KENTUCKY

    Mr. Halligan. Thank you, Mr. Chairman. Thank you for the 
invitation to attend today's hearing. As you know, I am Mike 
Halligan, CEO for God's Pantry Food Bank in Lexington, 
Kentucky. Today I am honored to testify on behalf of more than 
an estimated quarter of a million food-insecure Kentuckians, 
including nearly 72,000 hungry children who reside in central 
and eastern Kentucky.
    My remarks will address the critical role Federal after-
school and summer feeding programs play in addressing childhood 
hunger. That said, I in no way intend to diminish the 
importance or the significant impact of many other nutritious 
food and meal programs that assist families with children in 
daycare and school or pregnant women, infants, and toddlers.
    Let us begin by acknowledging, as we have this morning, 
that it is never a child's fault that they are hungry. Congress 
needs to make policy changes under a two-part strategy to more 
effectively reach children during the summer, after school, and 
on weekends.
    First, we need to strengthen the site-based model by 
streamlining Federal programs to expand the number of sites 
that are available to children. To do this, we recommend 
community providers be able to operate one program year-round 
through the Summer Food Service Program, and that area 
eligibility requirements used by at-risk sites be changed from 
50 percent to 40 percent, like other Federal aid programs.
    Second, we need to allow the use of alternate program 
models to fill gaps where children cannot otherwise access a 
meal, modifying, not replacing, the congregate feeding 
requirement and utilizing an efficient summer grocery card. One 
complex challenge involves duplicate and inconsistent rules and 
regulations. God's Pantry Food Bank utilizes two Federal child 
nutrition programs: the Summer Food Service Program and the 
Child and Adult Care Food Program under the after-school 
provision. Simply put, two categories: summer regulations and 
school-year regulations. Often, we are feeding the same 
children in the same location, so one would think we would 
operate under the same guidelines. The rules for one do not 
always apply to the other. The paperwork is different. The 
nutrition requirements are different. The reimbursement rates 
are different. The training is different. Needless to say, it 
gets very confusing. Why not have a program with one set of 
rules and regulations to complement the National School Lunch 
Program for both summer and after-school meals?
    A public library serves as a summer site in one Kentucky 
county. Children eat onsite. The library then packs additional 
lunches into a mobile bookmobile and drives to a low-income 
housing area. At this second site, there are no picnic tables 
or park benches. So on a hot, summer day or, heaven forbid, 
during a thunderstorm, the children must stand or sit on the 
ground in the vicinity of the mobile unit to ensure the meal is 
consumed on premise in front of supervising staff.
    There is a child with a physical disability who lives in 
the apartment building. Unfortunately, that child is not 
eligible for a Summer Food Service Program meal. The librarian 
instead has to pack a separate, non-reimbursed meal for the 
child, and the child's sibling takes that separate meal to him 
because he cannot leave his apartment to congregate!
    If regulations were modified, the child would receive a 
reimbursed meal; the other children would sit in the shade of 
their own porch; and the bookmobile would have the time to 
travel to other locations to deliver additional meals. This 
two-part strategy will effectively reach more children who need 
meal assistance after school, in the summer, and on weekends.
    Providing opportunity for all of our Nation's children 
requires investing resources to increase access, particularly 
during times when children are out of school. Simply making a 
small, incremental change to programs is not enough. Many of 
these recommendations have been successfully applied in 
numerous demonstration projects. The time has come to apply 
these learnings across our beloved Nation.
    I encourage the Committee to strengthen child nutrition 
programs through reauthorization, helping to end hunger in this 
country.
    I will close with a final thought that is forever etched in 
my mind. I was at an after-school kids' cafe program at a local 
Boys and Girls Club. A student, who I will simply call ``K,'' 
approached and handed me a small framed drawing of a slice of 
buttered toast. I smiled, saying, ``Thank you.'' The reply was, 
``No. Thank you. Because of the food you help me get, I am not 
as hungry and I do better in school.'' Leave it to the mind of 
a child to help one clearly understand the need.
    It is humbling to testify today on behalf of ``K'' and here 
is the picture. Thank you.

    [The prepared statement of Mr. Halligan can be found on 
page 70 in the appendix.]

    Chairman Roberts. Thank you, Mr. Halligan. Thank you for 
your pertinent suggestions and advice. All of your advice is--
all of your statements will be made part of the record. I want 
to assure you of that. Now, that is a piece of toast, as I 
understand it?
    Mr. Halligan. Yes, sir. It is a piece of buttered toast.
    Chairman Roberts. Buttered toast.
    Mr. Halligan. ``K'' was 6 years old.
    Chairman Roberts. What is that in the middle of the toast?
    Mr. Halligan. That is the slab of butter.
    [Laughter.]
    Chairman Roberts. I thought it was a mushroom.
    Mr. Halligan. It took me a while to figure out what it was, 
too. Like I said, leave it to the mind of a child to help one 
clearly understand what we need to do.
    Chairman Roberts. Right. We are a little pressed for time 
in that we have votes at 11:45, so let us proceed.
    Our next witness, Lauren Waits, has more than 20 years of 
experience with maternal and child health issues in Atlanta, 
Georgia. Ms. Waits is the current director of government 
affairs for the Atlanta Community Food Bank, where she focuses 
on SNAP and WIC issues. She formerly conducted policy research 
for the Georgia Health Policy Center at Georgia State 
University and is a graduate of the Harvard School of Public 
Health. Welcome, Ms. Waits.

  STATEMENT OF LAUREN WAITS, DIRECTOR OF GOVERNMENT AFFAIRS, 
         ATLANTA COMMUNITY FOOD BANK, ATLANTA, GEORGIA

    Ms. Waits. Chairman Roberts, Ranking Member Stabenow, and 
members of the Committee, thank you for this chance to tell you 
about the work we are doing in Georgia to increase enrollment 
and participation in the WIC Program. I represent the Atlanta 
Community Food Bank, which provides more than 61 million meals 
a year through 600 partner agencies to over 755,000 in metro 
Atlanta and northwest Georgia.
    I also represent the Georgia WIC Working Group, a 
partnership between government, philanthropic, business, and 
nonprofit stakeholders working together to increase WIC 
enrollment and participation. Georgia was one of the first 
States to offer universal pre-K, and our then-Governor, Sonny 
Perdue, created the first State-level Department of Early Care 
and Learning. Georgia makes significant investments in early 
childhood programs, and we have a thriving quality rated child 
care system.
    Nonetheless, about one in five Georgia children do not 
always have enough to eat. Our food bank supports a range of 
community partnerships with schools, after-school, and summer 
meal providers because we want children to make full use of the 
healthy meals available through Federal nutrition programs. We 
could not ignore the fact that WIC participation has been 
declining in Georgia as it has across the country.
    With the support of the WIC Working Group and with funding 
from our donors, the Atlanta Community Food Bank hired an 
independent market research firm to conduct a series of focus 
groups with families who were eligible but not enrolled in the 
Georgia WIC Program in October 2017.
    The focus group discussions explored many aspects of 
contemporary family life and ideas about WIC. We found that 
even nonparticipating families have positive perceptions of 
WIC, and they were most familiar with the fact that WIC helps 
pay for infant formula and milk. Not all are aware of 
additional food benefits like fresh fruits and vegetables, nor 
did all families realize that WIC provides nutrition education. 
The elements make the program more attractive for families who 
are unfamiliar with it.
    Mothers, fathers, and grandparents all confirmed that food 
insecurity is a real and familiar threat in their lives. Most 
of the families had a story about a time when they did not know 
how they were going to pay for the food they needed, and some 
said that WIC played a crucial part in preventing them from 
facing that crisis.
    Families discuss some of the reasons they are not currently 
enrolled in WIC. Both in the WIC clinic and at the grocery 
store, participants need to make good use of their time. If a 
new mother is taking time off work and forgoing pay, as has 
been mentioned, to bring her baby to the clinic, she literally 
cannot afford to wait too long there. Voucher delays in the 
checkout line or difficulty identifying WIC-eligible foods 
throughout the store can also make parents decide the benefit 
might not be worth the effort. However, these families are 
online, usually through smartphones, and they are actively 
seeking information to help them raise healthy kids. They are 
very comfortable using technology to enroll in all sorts of 
activities, and they would be excited about digital WIC apps 
that help them to get certified, receive nutrition, and fulfill 
other program requirements. Some States do already have these 
technologies in place. Georgia does not yet.
    We are aware of several WIC policy recommendations that 
national advocates have suggested. Our experience in Georgia 
strongly supports them.
    No. 1, please keep WIC accessible to as many low-income 
mothers and children as possible. WIC is a powerful factor in 
helping the women we serve have safer pregnancies, have fewer 
premature births and infant deaths, and it is supporting 
positive health outcomes for infants and children, especially 
lower obesity rates, and improves school performance. It 
prevents food insecurity. Groups like ours can help to support 
outreach and enrollment in WIC, but we need you to make sure 
its broad availability continues.
    No. 2, we support extending certification periods and 
lifting the age of WIC coverage. Georgia families told us it is 
hard to keep their kids certified while juggling work and other 
family demands. We ask that you allow families to maintain 
their connection to WIC for longer periods and reduce 
unnecessary certification barriers. We also support extending 
WIC coverage to older children, for example, up to age 6, so 
that children who may not yet be enrolled in school continue to 
have access to nutritious foods.
    No. 3, we ask that the new legislation include measures to 
promote cross-enrollment between WIC and other programs that 
benefit kids like SNAP and Medicaid. The Georgia WIC Working 
Group has pushed for comparison of Medicaid and WIC 
participation rates, and new technology systems allow us to 
evaluate successes more quickly and easily than ever before. 
Performance metrics must be a requirement in order for them to 
be a priority.
    On a personal note, I would just like to share that I am an 
adoptive parent whose child was nourished by her birth mother 
and the WIC program until we could feed her ourselves. I am 
grateful for the existence of WIC, and I witness its benefits 
to my vibrant, healthy daughter every day.
    Thank you for your work on all these important programs. I 
would be happy to answer questions.

    [The prepared statement of Ms. Waits can be found on page 
81 in the appendix.]

    Chairman Roberts. We thank you very much.
    Our next witness, Kati Wagner, is the current vice 
president of the National Child and Adult Care Food Program 
Sponsors Association, which is based in Round Rock, Texas. She 
has served on their board of directors since 2012 as both 
secretary and treasurer. Ms. Wagner has been the president of 
the Wildwood CACFP in Centennial, Colorado, since 2009. 
Welcome. We look forward to your testimony.

   STATEMENT OF KATI WAGNER, VICE PRESIDENT, NATIONAL CACFP 
            SPONSORS ASSOCIATION, ROUND ROCK, TEXAS

    Ms. Wagner. Good morning. Chairman Roberts, Ranking Member 
Stabenow, and Committee members, thank you very much for 
allowing me to testify today for the very first time.
    My name is Kati Wagner, and I sere as the vice president 
and policy chair for the National Child and Adult Care Food 
Program Sponsors Association, or NCA. We are a national 
association whose mission it is to support the hundreds of 
thousands of people who make up the USDA Child and Adult Care 
Food Program community, the CACFP, which includes sponsoring 
organizations, family child care homes and centers, Head Start, 
after-school at-risk sites, and adult daycare facilities, as 
well as State agencies, anti-hunger advocates, and industry 
supporters.
    As president of the sponsoring agency for the CACFP, I 
personally work with each of those groups in Colorado and with 
family child care homes in Wyoming. Today it is my honor to 
share an overview of the CACFP, often referred to as ``the food 
program.''
    The CACFP is part of the Richard B. Russell National School 
Lunch Act. Though smaller than the School Lunch Program, 
current appropriations serve about 4.5 million children per day 
and 2 billion meals per year. CACFP provides funding to child 
care facilities (homes and centers), after-school programs, 
homeless shelters, and adult daycare facilities as 
reimbursement for serving healthy foods to those in their care. 
Funding not only improves nutrition for the children and older 
adults when parents or caregivers are working; it helps small 
businesses offset the higher cost of serving healthier food, 
while parents are allowed to work and have access to quality 
child care. This program is one of the best examples of a 
public-private partnership, improving children's lives and 
supporting working families while boosting local economies.
    CACFP is a multifaceted approach to feeding food-insecure 
children through various settings. One avenue of participation 
is with a sponsoring organization. This is the only way that 
licensed family child care providers can participate in the 
food program. Family home sponsoring organizations are 
nongovernmental, nonprofit organizations which are responsible 
for maintaining program integrity by making frequent onsite 
visits to the child care home, offering training, support, and 
oversight.
    As a sponsor, my organization visits the child care 
provider's home at least three times a year to verify children 
are in care and that the meals being served meet with USDA meal 
pattern requirements.
    With the remainder of my time, I would like to tell you 
about a family child care provider enrolled in the CACFP from 
Cortez, Colorado. Many of the resources that I will be 
referencing will be found in my written testimony.
    Meet Mickey. Mickey's children arrive between 7 and 8 
o'clock every morning. Their day starts with a healthy 
breakfast of oatmeal, strawberries, and a glass of milk. Her 
kitchen walls are covered with USDA Team Nutrition posters 
showcasing fun, healthy nutrition ideas, USDA's MyPlate poster, 
and NCA's motivational posters, as well as her children's art 
work. After breakfast, the children have circle time playing 
and learning about colors and shapes until their morning snack 
of carrot sticks and watermelon slices. Next, they go outside, 
even in the Colorado winters, for physical activity time 
playing games they have learned from the NCA Program Calendar 
until it is time for lunch.
    So today at Mickey's, they are having baked chicken breast, 
broccoli trees, apple slices, a whole grain-rich roll, and a 
glass of milk. Mickey's parents do not pick up their children 
until 6 or 7 p.m. so she provides an afternoon snack of orange 
wedges and graham crackers as well dinner, which includes whole 
grain-rich spaghetti, tomato sauce, tossed spinach salad, 
garlic bread, and milk. Mickey is only reimbursed for two meals 
and one snack through the CACFP each day, but she provides all 
of the meals to the children in her care because eight out of 
ten people in her area are food insecure. The last time I was 
in her home, she was explaining to me how grateful she is for 
the support she receives by participating in the CACFP under a 
sponsoring organization. The program allows her to serve more 
nutritious food, to keep enrollment fees down. On Monday 
mornings, Mickey serves two to three times the amount of food 
for breakfast she normally would because the children come in 
so hungry.
    Across the country millions of children are being served by 
providers or small business owners just like Mickey. We have 
included more stories about providers in our written testimony. 
This Committee has an important opportunity in 2019 to improve 
the health of our Nation's children by passing a strong child 
nutrition reauthorization that protects and strengthens all 
child nutrition programs. These successful, cost-effective 
Federal nutrition programs play a critical role in helping 
children in low-income families achieve access to child care 
and educational and enrichment activities while improving 
overall nutrition, health, development, and academic 
achievement.
    We are very excited that reauthorization is back on your 
table. It has the ability to change what is on the table for 
4.5 million children each day. As the national association for 
providers, meal sponsors, and front-line users of the CACFP, we 
are eager to share suggestions that we believe would improve 
the CACFP. Most of the program improvements we are suggesting 
do not represent any increase in cost to the program but would 
create efficiencies and reduce barriers to participation.
    Thank you for your support of the CACFP and our Nation's 
most vulnerable populations, and I will be happy to answer any 
questions you may have.

    [The prepared statement of Ms. Wagner can be found on page 
91 in the appendix.]

    Chairman Roberts. We thank you.
    Senator Stabenow.
    Senator Stabenow. Well, thank you to all of you for your 
really important testimony, and last but not least, we have Dr. 
Lanre Falusi. Welcome. She is a pediatrician and associate 
medical director at the Child Health Advocacy Institute, part 
of Children's National Health System here in Washington, DC. 
She is also a past president of the American Academy of 
Pediatrics D.C. Chapter. She attended medical school at the 
University of Virginia, and I have to tell you I wish Michigan 
State had been the one playing you on Monday night.
    [Laughter.]
    Senator Stabenow. I was looking forward to that game, but 
congratulations.
    She completed her residency and chief residency at 
Children's National. We want to thank you for being here, and 
we look forward to your testimony.

  STATEMENT OF OLANREWAJU (LANRE) FALUSI, M.D., PEDIATRICIAN, 
CHILDREN'S NATIONAL HEALTH SYSTEM, AND PAST PRESIDENT, AMERICAN 
      ACADEMY OF PEDIATRICS D.C. CHAPTER, WASHINGTON D.C.

    Dr. Falusi. Chairman Roberts, Ranking Member Stabenow, and 
members of the Committee, thank you for the opportunity to 
testify here today. I am Dr. Lanre Falusi, as you heard, a 
pediatrician at Children's National Health System here in D.C. 
and past president of the D.C. Chapter of the American Academy 
of Pediatrics, or AAP. On behalf of the AAP and our 67,000 
members, thank you for holding today's hearing.
    As a practicing pediatrician, I see firsthand the health 
effects of food insecurity and malnutrition in my patients. I 
also see the positive impact that Federal child nutrition 
programs have had on reducing food insecurity and promoting 
access to healthy, nutritious foods in my patients. These are 
programs such as the National School Lunch Program and School 
Breakfast Program, the Child and Adult Care Food Program, the 
Summer Food Service Program, and, of course, WIC.
    In fact, I credit WIC for the health of my patient, who I 
will call ``David,'' whose developmental delays at 3 years of 
age made it very difficult for him to chew solid foods. His 
family was also experiencing food insecurity. David was really 
struggling, underweight, and with poor developmental skills 
when I first met him. We got him connected to regular visits at 
WIC, which was our clinic, and provided him with a special 
high-calorie milk and balanced diet with fresh fruits and 
vegetables, which took an enormous stress off of his mother. 
She could now be sure that her son is not going hungry, and he 
is able to focus on learning fine motor and cognitive skills. 
David is now thriving and has reached a healthy weight. His 
success and so many others like him highlights the importance 
of connecting families who are experiencing food insecurity 
with key Federal programs so that children can reach their 
highest potential.
    Maternal prenatal nutrition and the child's nutrition in 
the first 2 years of life are crucial factors in a child's 
neurological development and lifelong mental health. Child and 
adult health risks, including obesity, hypertension, and 
diabetes, may be programmed by nutritional status during this 
critical period.
    Research has documented the adverse effects of food 
insecurity on the health, growth, and development and even 
educational outcomes of children from infancy through 
adolescence. Among school-aged children, food insecurity is 
associated with lower math and reading scores, hyperactivity, 
and absenteeism and tardiness at school. Children from food-
insecure households have poorer overall health and more 
hospitalizations than do children who live in food-secure 
households.
    When my patients screen positive for food insecurity, I 
refer them to Federal child nutrition programs, and I counsel 
families on healthy food choices. However, for many of my 
patients, fruits and vegetables, whole grains, and low-sodium 
foods are unaffordable, unattainable, or they lack the ability 
to prepare them. In fact, for some of my patients, the only 
meals they get each day are from the Federal school nutrition 
programs.
    That is why it is critical that we set students up for 
success by building on the programs made under the Healthy 
Hunger-Free Kids Act, to improve the nutritional quality of 
school meals, and to ensure snack foods and beverages sold in 
schools are healthy and nutritious as well.
    Stigma, administrative burden, and increasingly fear serve 
as barriers to children's participation in Federal nutrition 
programs. The Community Eligibility Provision, or CEP, is a 
vitally important for high-poverty schools to ensure that all 
of their students have access to healthy school meals while 
eliminating the traditional school meal application process. I 
applaud this Committee for creating CEP, and I urge you to 
maintain and protect this option for schools.
    One of the most effective investments Congress can make 
during childhood is to support and reduce barriers to accessing 
WIC. Children who receive WIC have improved birth outcomes, 
increased rates of immunization, and better access to health 
care through a medical home. WIC also plays an important role 
in promoting breastfeeding through the successful breastfeeding 
peer counseling program.
    I am concerned, however, that many of my patients who start 
out on WIC as infants do not remain connected to the program. 
Giving States the option to eliminate recertification at age 1 
would ease the administrative burden to participation. 
Similarly, extending WIC eligibility to age 6 would address the 
age gap for children who have not yet started kindergarten.
    Children need optimal nutrition year-round. Countless 
children go without access to food during out-of-school or 
child care time, especially in the summer months. We must do 
more to reach more children with nutritious meals and snacks in 
all of these settings.
    Good nutrition in pregnancy and childhood is a foundation 
for lifelong health. Just like we vaccinate to protect against 
illness, so too can we provide pregnant women and children with 
nutritional assistance and breastfeeding support to promote 
healthy development and protect against food insecurity and 
chronic disease.
    Thank you for the opportunity to testify here today.

    [The prepared statement of Dr. Lanre Falusi can be found on 
page 124 in the appendix.]

    Chairman Roberts. Thank you very much.
    I am now going to recognize Senator Casey with the 
admonition that we are voting at 11:45 and that there may be 
somewhat of a time concern here. So the Senator is recognized.
    Senator Casey. Thank you, Mr. Chairman. This is 
unprecedented. This has never happened before that I was 
recognized this early, and I am grateful for that, so I am 
going to keep within my time.
    Doctor, I want to start with you. There has been much 
discussion in Pennsylvania about the ability of schools to 
serve whole milk to students. My question for you is: What does 
the science tell us about the appropriate levels of whole milk 
consumption?
    Dr. Falusi. Thank you for the question. As a pediatrician, 
I recommend to my patients that they drink water or low-fat or 
fat-free milk. We know that milk has many benefits from 
protein, calcium, and vitamin D. We also know, though, that 
lower fat and lower sugar in diets are healthier for children. 
So what we would admonish from the American Academy of 
Pediatrics is that the standards for school nutrition programs, 
including the type of milk, should really be based on the 
science, and the science being that lower fat and lower sugar 
are what we should be advocating for children. We do encourage 
the USDA to utilize nutrition experts and to look at a number 
of studies for those guidelines.
    Senator Casey. Thank you.
    I will move to Ms. Wagner. The last time this Committee 
considered reauthorization of the child nutrition programs, I 
introduced the Access to Healthy Food for Young Children Act. 
This legislation proposed a number of improvements to the Child 
and Adult Care Food Program, including reducing the area 
eligibility test and allowing for a third meal service. I 
intend to once again push for those improvements to the 
program.
    Could you provide an example of low-to no-cost 
modifications to the program that could both increase 
participation as well as improve outcomes?
    Ms. Wagner. Yes, thank you for asking the question. One of 
our top priorities after we surveyed all of our members of the 
association was that we limit add-ons by the State agency in 
the USDA regional offices. We work very well with the USDA 
national office, but we have found that the regional offices 
and the State agencies continue to add on additional 
regulations, and this is creating a huge barrier to 
participation. So that was actually our No. 2 priority.
    Senator Casey. That is helpful to help us make the case in 
this process. What we are trying to do with the legislation is 
to make both more child care providers who serve low-income 
children eligible for higher Tier 1 reimbursement and also help 
many more children in need receive the healthy meals and snacks 
that the program provides. So we are grateful for your 
leadership and also grateful for the example you gave us.
    Mr. Chairman, I will just conclude with one statement. I 
know I have got more time, but in the interest of the vote and 
everything else, John Kennedy in his inaugural address said a 
lot of great things. We always quote him. One thing that he 
said that I think binds public officials together, no matter 
what party, is the line where he said, ``Here on Earth, God's 
work must truly be our own.'' I appreciate the panel's work to 
bring reminders to us about what is God's work. So thanks very 
much, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. Very quickly, I 
want to apologize for not being here during the vast majority 
of the meeting. I had a markup on Environment and Public Works. 
They needed me for a quorum. We had all of the generals that 
control the Reserves and the National Guard. I just left the 
hearing with Attorney General Barr. So a lot is going on all at 
the same time.
    On the other hand, I would say that this hearing is as 
important as any, and I applaud the Chairman and Ranking Member 
for having it. I want to thank the panel. I also want to thank 
all of you that are so interested in this. This is going to 
take all of us working together to get done. It is so, so very 
important. It is something that we can get done this Congress, 
and we do not have anybody being better leaders than these two 
as far as pushing things forward. They have got a great track 
record in a very bipartisan way of getting things done.
    So I look forward to working with all of you, and like I 
said, this is something that we can and will get done this 
Congress.
    Thank you.
    Chairman Roberts. Well, I truly appreciate your statement, 
Senator Boozman.
    Senator Stabenow, and the vote has started, by the way.
    Senator Stabenow. Thank you very much. I have questions for 
everyone, and because of the vote, I will submit most of these 
for the record and ask for your comments.
    Thank you to all of you. Each of you are doing incredibly 
important work, and we just need to do everything we can to 
support you in that, and we will.
    Just a couple of questions that I have, one for Mr. 
Mathiasmeier. Thank you for the work that you are doing in 
Kansas City. It is very exciting, when I was listening to you 
speak of all the ways you are doing outreach for children and 
schools. You mentioned the importance of the Community 
Eligibility Provision. If community eligibility were eliminated 
or if how schools can qualify was restricted, can you describe 
what this would do to your students and the administration of 
the program?
    Mr. Mathiasmeier. Sure. So if the Community Eligibility 
Provision was abolished or not available anymore, we would have 
less access--or children would have less access to meals. I can 
guarantee you that less of them would participate. There would 
be more barriers between kids that really need our programs and 
their ability to consume our meals. So I would be very 
concerned about the access that kids have to healthy meals.
    Senator Stabenow. Thank you. I share that as much as well.
    Dr. Falusi, thank you again for being here. Your testimony 
describes how collocating WIC clinics with your office improves 
the client's experiences and makes sure they are connected to 
health care service in addition to good nutrition. Based on 
your experience, what else can we do to reduce barriers and 
improve the WIC program and the experience for moms and babies?
    Dr. Falusi. Thank you for that question. So, absolutely, 
being able to walk that family out of the exam room and down 
the hallway to the WIC clinic has been crucial for us in 
ensuring that those families really have access to healthy 
nutrition.
    Other things as we have heard today, maintaining the 
Community Eligibility Provision so that schools and families do 
not have to have onerous paperwork every year, additionally 
maintaining the adjunctive eligibility with Medicaid and WIC is 
crucial toward reducing the administrative burdens and ensuring 
that families do not have to spend their precious time, 
particularly our low-income families who have limited time with 
work, to really go through the paperwork just to maintain their 
access to healthy foods. We would advocate for those programs.
    Senator Stabenow. Thank you very much.
    Senator Stabenow. Thank you, Mr. Chairman. The show of the 
ultimate trust I have for the Chairman, I am going to be 
leaving now to go to the vote and leaving him in charge.
    [Laughter.]
    Senator Stabenow. So, you know, make sure he is okay here. 
Thank you, Mr. Chairman, for your leadership, and thank you to 
all of you.
    Chairman Roberts. Well, thank you for that trust. I 
appreciate that very much.
    I want to emphasize that all statements that have been made 
by you--and thank you so much for your statements. All will be 
in the Committee record. All of the statements will help us in 
the Committee move through the process of reauthorization. It 
is a tough path, especially given the circumstances today with 
legislation in both Houses. I am optimistic we can do that. All 
statements will be available to the Department of Agriculture 
for their study and also for response. So simply because I am 
asking you one question, do not even--just do not worry. Your 
statements are part of the record, and we really appreciate 
them.
    To the panel, each of you, we have 105 counties in Kansas, 
so I am saying about all of them except 5 are pretty much 
rural. Out west, it is all rural. Can each of you provide an 
example of potential program improvement such as flexibility 
that would allow you to better serve or provide access to 
people in our rural areas? We will start with you, Josh.
    Mr. Mathiasmeier. That is a great question, Chairman. I 
think the Summer Food Service Program congregate meals 
requirement is something that has a huge impact on rural 
Kansas, but also in the Kansas City area, we have families that 
live a block, a mile, 2 miles away from a summer food program 
and they just cannot get there. So the congregate meals is 
definitely something that could be looked at.
    Chairman Roberts. Mr. Halligan, you touched on that as 
well.
    Mr. Halligan. I did. You know, I think relaxing--again, not 
eliminating, relaxing the congregate meeting requirement or 
congregate feeding requirement certainly allows us to access 
more individuals where they live. It is about bringing the food 
to people rather than bringing the people to food.
    The second thing I would add is the notion of a summer 
grocery card. I was born and raised in Iowa, and the 
transportation distances simply to get to a grocery store let 
alone a site are pretty dramatic. My wife would plan--her 
family would plan their weekend around a grocery shopping trip. 
So I think an EBT for summer feeding for children is a very 
powerful tool that will help rural families in particular.
    Chairman Roberts. Thank you.
    Ms. Waits?
    Ms. Waits. For WIC, extending the certification period for 
young children so that families do not have to go on such a 
frequent basis to the WIC clinic, there are other ways to 
fulfill their nutrition education requirements, but keeping 
those rural families on WIC for a longer period of time will 
allow them to make better use, more extended use of the 
benefit.
    Chairman Roberts. Thank you.
    Ms. Wagner?
    Ms. Wagner. Yes, sir. So currently the at-risk after-school 
program can only run during the school year, and then Summer 
Feeding kicks in. I think a great way to increase participation 
is to consider allowing both programs to go year-round. In some 
areas of the country, we have an incredibly strong at-risk 
program and a very small, if any, Summer Feeding Program. So 
these children just go the summer without eating. Then the same 
thing, we do not have at-risk after-school programs in all 
areas of the country where summer food is very, very strong. So 
that might be a way to increase participation by allowing one 
or the other--or both to go year-round and then people can 
choose whether it be at-risk or summer food.
    Chairman Roberts. I appreciate that very much. Thank you.
    Chairman Roberts. Dr. Falusi?
    Dr. Falusi. I would echo what all of my panelists have 
said. In addition, with WIC, along with increasing the 
certification beyond 1 year, also increasing the age up to age 
6 will increase the eligibility for kids and access. We find 
that there are children who reach the maximum age of 5 for WIC, 
but have not yet started kindergarten, and will have up to a 
year of poor nutrition. As we know, early nutrition in those 
years is critical to their ongoing educational outcomes.
    Chairman Roberts. We thank you all. That will conclude our 
hearing today. Thank you to each of our witnesses for taking 
time to share your views on these important programs and what 
to consider in child nutrition reauthorization. The testimoneys 
provided today, as I have Stated, are extremely valuable for 
the Committee to hear firsthand, and we all appreciate that.
    To my fellow members, we ask that any additional questions 
you may have for the record be submitted to the Committee clerk 
5 business days from today, or 5 p.m. next Wednesday, April 
17th.
    The Committee is adjourned. Thank you.
    [Whereupon, at 11:58 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             APRIL 10, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
